Case: 19-2641

Document: 39

Page: 1

Date Filed: 06/24/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2641

EUGENE DAVIS,
Appellant
v.
WARDEN ALLENWOOD FCI

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Civil No. 3-17-cv-00968)
District Judge: Hon. A. Richard Caputo

Argued March 31, 2020
Before: GREENAWAY, JR., PORTER, and MATEY, Circuit Judges.
(Opinion filed: June 24, 2020)
Frederick W. Ulrich [ARGUED]
Office of Federal Public Defender
100 Chestnut Street
Suite 306
Harrisburg, PA 17101
Counsel for Appellant

1 a

Case: 19-2641

Document: 39

Page: 2

Date Filed: 06/24/2020

David J. Freed
Melissa A. Swauger [ARGUED]
Office of United States Attorney
Middle District of Pennsylvania
228 Walnut Street, P.O. Box 11754
220 Federal Building and Courthouse
Harrisburg, PA 17108
Counsel for Appellee

OPINION
MATEY, Circuit Judge.
Eugene Davis petitioned under 28 U.S.C. § 2241 challenging his Armed Career
Criminal Act (“ACCA”) sentence enhancement. The District Court dismissed his petition
for lack of jurisdiction. We will affirm.
I. BACKGROUND
In 2009, Davis pleaded guilty in the United States District Court for the Northern
District of Iowa to unlawful possession of a firearm in violation of 18 U.S.C. § 922(g)(1).
The District Court determined that Davis’s three prior convictions for burglary under Iowa
law qualified as “violent felonies” under the ACCA. See 18 U.S.C. § 924(e). That increased
the penalty for his § 922(g)(1) conviction from no more than 120 months’ imprisonment
to at least 180 months. The District Court ultimately imposed a sentence of 210 months, a
decision later affirmed on direct appeal.



This disposition is not an opinion of the full Court and, pursuant to I.O.P. 5.7, does
not constitute binding precedent.

2 a

Case: 19-2641

Document: 39

Page: 3

Date Filed: 06/24/2020

In 2012, Davis challenged his sentence under 28 U.S.C. § 2255, asserting ineffective
assistance of counsel. The District Court denied that motion and declined to grant a
certificate of appealability. In 2016, the United States Court of Appeals for the Eighth
Circuit denied Davis’s request to file a successive § 2255 petition.1
Later in 2016, Davis again asked the Eighth Circuit for permission to file a
successive § 2255 petition. This time, he directed the court to Mathis v. United States, 136
S. Ct. 2243 (2016), which held that convictions under Iowa’s burglary statute did not
qualify as “violent felonies” under the ACCA. But the Eighth Circuit denied his request,
concluding that Mathis “did not announce a new rule of constitutional law.” (App. at 70.)
See 28 U.S.C. § 2255(h)(2); cf. United States v. Peppers, 899 F.3d 211, 230 (3d Cir. 2018).
In 2017, Davis petitioned the United States District Court for the Middle District of
Pennsylvania2 for a writ of habeas corpus under § 2241, once again relying on Mathis to
challenge his ACCA sentence enhancement. The District Court dismissed the petition for
lack of jurisdiction, and Davis timely appealed.3

1

That request relied on Johnson v. United States, in which the Supreme Court held
that ACCA’s residual clause was unconstitutionally vague. 135 S. Ct. 2551, 2557 (2015).
2
Although § 2255 petitions are filed with the sentencing court, § 2241 petitions are
filed in the district of confinement. Bruce v. Warden Lewisburg USP, 868 F.3d 170, 178
(3d Cir. 2017). As a result, Davis’s § 2255 petition was filed in the United States District
Court for the Northern District of Iowa (the court that sentenced him), and his § 2241
petition was filed in the United States District Court for the Middle District of Pennsylvania
(where he was confined).
3
“The District Court had the power to ascertain its own jurisdiction, and we have
appellate jurisdiction under 28 U.S.C. §§ 1291 and 2253(a). We exercise plenary review
over the District Court’s order denying [Davis’s] petition for lack of jurisdiction.” Gardner
v. Warden Lewisburg USP, 845 F.3d 99, 102 (3d Cir. 2017).

3 a

Case: 19-2641

Document: 39

Page: 4

Date Filed: 06/24/2020

II. DISCUSSION
“Motions pursuant to 28 U.S.C. § 2255 are the presumptive means by which federal
prisoners can challenge their convictions or sentences.” Okereke v. United States, 307 F.3d
117, 120 (3d Cir. 2002). But they are not the exclusive means, because a prisoner may
petition for a writ of habeas corpus under § 2241 if § 2255 “is inadequate or ineffective to
test the legality of his detention.” 28 U.S.C. § 2255(e).
We considered the language of this “safety-valve” clause in In re Dorsainvil, a case
involving a petitioner convicted of violating 18 U.S.C. § 924(c)(1). 119 F.3d 245, 246, 249
(3d Cir. 1997). There, the petitioner challenged his sentence under § 2255, asserting
ineffective assistance of counsel and double jeopardy, but that motion was denied. Id. at
246. After the Supreme Court later narrowed the scope of § 924(c)(1), the petitioner asked
for permission to file a successive § 2255 petition based on that decision. Id. at 246–47.
We denied the request, but noted that “under narrow circumstances, a petitioner in [this]
uncommon situation”—i.e., a petitioner “claim[ing] that he is being detained for conduct
that has subsequently been rendered non-criminal by an intervening Supreme Court
decision,” with “no other avenue of judicial review available” to “challenge his
conviction”—may use the safety-valve clause of § 2255 to challenge his conviction under
§ 2241. Id. at 248, 251–52.
Davis’s petition does not fall into these “narrow circumstances.” He is challenging
neither his conviction under § 922(g)(1), nor his Iowa burglary convictions. Instead, he
claims to be no longer eligible for the fifteen-year mandatory minimum sentence under 18
U.S.C. § 924(e). But that provision is only “a sentence enhancement . . . and does not create

4 a

Case: 19-2641

Document: 39

Page: 5

Date Filed: 06/24/2020

a separate offense.” United States v. Mack, 229 F.3d 226, 231 (3d Cir. 2000).4 And we have
never applied Dorsainvil to “issues that . . . arise regarding sentencing.” Gardner v. Warden
Lewisburg USP, 845 F.3d 99, 103 (3d Cir. 2017).5
III. CONCLUSION
Section 2255(e) does not permit Davis to challenge his sentencing enhancement
under § 2241. So we will affirm the dismissal of Davis’s petition.

4

Cf. United States v. Abbott, 574 F.3d 203, 211 n.5 (3d Cir. 2009) (noting that 18
U.S.C. § 924(c)—the statute at issue in Dorsainvil—“defines a separate offense”).
5
See Gardner, 845 F.3d at 102–03 (no jurisdiction over petition alleging that a judge
found facts that increased the mandatory minimum sentence, in violation of Alleyne v.
United States, 570 U.S. 99 (2013)); Okereke, 307 F.3d at 120–21 (no jurisdiction over
petition alleging that a judge found facts that increased the maximum sentence, in violation
of Apprendi v. New Jersey, 530 U.S. 466 (2000)); see also Cradle v. U.S. ex rel. Miner,
290 F.3d 536, 538–39 (3d Cir. 2002) (per curiam) (no jurisdiction over petition alleging
that the Government never notified petitioner of its intention to pursue enhanced recidivist
sentence, in violation of 21 U.S.C. § 851). We note that Dorsainvil’s interpretation of
§ 2255 deviates from the textual conclusions reached by other courts. See, e.g., Prost v.
Anderson, 636 F.3d 578, 585 (10th Cir. 2011) (explaining that § 2255’s safety-valve clause
only “ensur[es] the prisoner an opportunity or chance to test his argument,” with “no
guarantee about outcome or relief,” so that “[t]he ultimate result may be right or wrong as
a matter of substantive law, but the . . . clause is satisfied so long as the petitioner had an
opportunity to bring and test his claim”). But Dorsainvil and its progeny bind our analysis.

5 a

Case: 19-2641

Document: 40-1

Page: 1

Date Filed: 06/24/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2641

EUGENE DAVIS,
Appellant
v.
WARDEN ALLENWOOD FCI

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Civil No. 3-17-cv-00968)
District Judge: Hon. A. Richard Caputo

Argued March 31, 2020
Before: GREENAWAY, JR., PORTER, and MATEY, Circuit Judges.

JUDGMENT

6 a

Case: 19-2641

Document: 40-1

Page: 2

Date Filed: 06/24/2020

This cause came to be considered on appeal from the United States District Court
for the Middle District of Pennsylvania and was argued on March 31, 2020.
On consideration whereof, it is now hereby ORDERED and ADJUDGED by this
Court that the order of the District Court entered on June 17, 2019, is hereby AFFIRMED.
Each party to bear its own costs.
All of the above in accordance with the Opinion of the Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: June 24, 2020

7 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 1 of 10

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
EUGENE DAVIS,
NO. 3:17-CV-00968
Petitioner,
(JUDGE CAPUTO)

v.

(MAGISTRATE JUDGE
MEHALCHICK)

WARDEN SPAULDING,
Respondent.

MEMORANDUM
Presently before me is Magistrate Judge Mehalchick’s Report and Recommendation
(“R&R”) (Doc. 25) regarding Petitioner Eugene Davis’s Petition for Writ of Habeas Corpus
pursuant to 28 U.S.C. § 2241 (Doc. 1). Magistrate Judge Mehalchick recommends that
Davis’s Petition be dismissed for lack of jurisdiction because he cannot proceed by way of
Section 2241, as he is challenging the legality of his sentence and must therefore proceed
under 28 U.S.C. § 2255 (even though any new Section 2255 motion would be barred as
successive). (Doc. 25 at 6-10). Davis objects, arguing that his particular situation qualifies
for the “saving clause” of 28 U.S.C. § 2255(e), which would permit me to consider his
Petition on the merits. (Docs. 28, 29). Although Davis might prevail in other circuits, Third
Circuit precedent forecloses the possibility of habeas relief through Sections 2255(e) and
2241 on the ground Davis raises—“innocence of the sentence.” The R&R will therefore be
adopted, and Davis’s Petition will be dismissed without prejudice for lack of jurisdiction.
I. Background
Davis’s story begins in 2009, when he
pleaded guilty to possession of a sawed-off shotgun by an
armed career criminal, in violation of [18 U.S.C.] §§ 922(g)(1)
and 924(e)(1) [provisions of the Armed Career Criminal Act
(“ACCA”).] Davis admitted in his plea agreement that he had
three prior burglary convictions, each of which constituted a
“violent felony” under 18 U.S.C. § 924(e)(2)(B), and that he was

8 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 2 of 10

an armed career criminal. His presentence investigation report
(PSR) showed that his prior burglary convictions each involved
the burglary of an automobile dealership. Davis did not object to
these paragraphs of the PSR. But Davis did object to the PSR’s
application of U.S.S.G. § 4B1.2, maintaining that commercial
burglary is not a “crime of violence” for purposes of the career
offender provision. At sentencing, Davis’s counsel acknowledged
that “the Eighth Circuit Court of Appeals has defined the
‘commercial burglary’ as a crime of violence for that—for the
purposes of career offender.” Counsel advised the district court
that he was “simply including that argument to preserve that
issue for appeal.” The district court overruled Davis’s objection[,
sentencing him to 17.5 years’ imprisonment.]
United States v. Davis, 414 F. App’x 891, 892 (8th Cir. 2011). The designation of
Davis’s previous crimes matters because if his commercial burglaries did not constitute
“crimes of violence,” his mandatory minimum sentence of 15 years’ imprisonment would
have shrunk to a 10-year maximum sentence. Compare 18 U.S.C. § 924(a)(2) with id. §
924(e). The Eighth Circuit affirmed the district court’s sentence in 2011, though, reasoning
that burglary of a commercial building constitutes a crime of violence. Davis, 414 F. App’x
at 892. Davis’s petition for a writ of certiorari was subsequently denied on November 7,
2011. Davis v. United States, 565 U.S. 1015 (2011).
Then, on October 18, 2012, proceeding pro se, Davis filed a Section 2255 motion to
vacate, set aside or correct his sentence. (See Doc. 10-1 at 13). In his motion, Davis
argued, “among other things, that counsel had rendered ineffective assistance because the
burglary predicates for the ACCA did not meet the definition of generic burglary.” (Doc. 29
at 6-7). But because Davis had essentially already made that argument on direct appeal,
the sentencing court denied the motion. See Davis v. United States, No. 1:12-cv-00107LRR, Doc. 12 at 5 (N.D. Iowa Nov. 7, 2013) (citing United States v. Lee, 715 F.3d 215, 224
(8th Cir. 2013)). The court declined to issue a certificate of appealability. Id. at 8.
Finally, in 2015 and in 2016, Davis filed two petitions for permission to file successive
habeas petitions with the Eighth Circuit, pursuant to 28 U.S.C. § 2255(h). (See Doc. 10-1
at 15-22). In the meantime, the Supreme Court decided Mathis v. United States, 136 S. Ct.
2243 (2016), holding that convictions under the same Iowa burglary statute Davis was
2

9 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 3 of 10

convicted under “cannot give rise to an ACCA sentence” because the statute encompasses
more than just “generic burglary.” Id. at 2257. In other words, Mathis rendered Davis
“innocent of the sentence” he received. But Mathis did not constitute “newly discovered
evidence” or a “new rule of constitutional law,” per 28 U.S.C. § 2255(h), so the Eighth Circuit
denied Davis’s petitions. (See Doc. 10-1 at 16, 23-24).
Accordingly, on June 5, 2017, Davis filed the instant Petition pursuant to Section
2241, arguing that he may proceed under Section 2255(e)’s saving clause, which allows
courts to entertain otherwise barred petitions if “the remedy by [Section 2255] motion is
inadequate or ineffective to test the legality of [the petitioner’s] detention.” (See Doc. 1).
(Section 2241 petitions must be filed in the district of confinement, Rumsfeld v. Padilla, 542
U.S. 426, 443 (2004); Davis is housed within this district at FCC Allenwood (Doc. 1 at 1)).
The Government initially agreed with Davis, stating that he was entitled to relief in the form
of re-sentencing. (Doc. 10 at 1). However, Magistrate Judge Mehalchick called the parties’
attention to Third Circuit precedent suggesting innocence of the sentence claims like
Davis’s cannot be brought in Section 2241 petitions. (See Doc. 15). Magistrate Judge
Mehalchick appointed Davis counsel, and both sides were provided an opportunity to
respond. (See id.; Doc. 20; Doc. 24). The Government reversed its position, arguing the
Petition must be dismissed. (See Doc. 20). In her R&R, Magistrate Judge Mehalchick
recommends that Davis’s petition be dismissed for lack of jurisdiction because, as she
pointed out to the parties earlier, Section 2255(e)’s saving clause does not encompass
claims like Davis’s. (See Doc. 25 at 8-10). Davis timely objected to the R&R. (Doc. 28).
The R&R and Davis’s objection have been fully briefed and are now ripe for review.
II. Legal Standard
If objections to a magistrate judge's R&R are filed, I must conduct a de novo review
of the R&R’s contested portions. Sample v. Diecks, 885 F.2d 1099, 1106 n.3 (3d Cir. 1989)
(citing 28 U.S.C. § 636(b)(1)(C)). I may accept, reject, or modify, in whole or in part, the
factual findings or legal conclusions of the magistrate judge. See 28 U.S.C. § 636(b)(1);
Owens v. Beard, 829 F. Supp. 736, 738 (M.D. Pa. 1993). Although the review is de novo,
3

10 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 4 of 10

the law permits me to rely on the recommendations of the magistrate judge to the extent I
deem it proper. See United States v. Raddatz, 447 U.S. 667, 675–76 (1980). Uncontested
portions of the report may be reviewed at a standard determined by the district court. See
Thomas v. Arn, 474 U.S. 140, 154 (1985). At the least, courts should rev iew uncontested
portions for clear error or manifest injustice. See, e.g., Cruz v. Chater, 990 F. Supp. 375,
376-77 (M.D. Pa. 1998).
III. Discussion
Davis’s objection—and ultimately, his Petition—raises a question of law: whether
Section 2255(e)’s saving clause applies where a petitioner, barred from filing a successive
Section 2255 motion, claims his sentence exceeds a statutory maximum due to an
intervening change in statutory interpretation. Magistrate Judge Mehalchick recommends
(and the Government argues) that the answer is: No, the saving clause does not apply,
largely because of the Third Circuit’s decisions in In re Dorsainvil, 119 F.3d 245 (3d Cir.
1997); Okereke v. United States, 307 F.3d 117 (3d Cir. 2002); and Gardner v. Warden
Lewisburg USP, 845 F.3d 99 (3d Cir. 2017). (See Doc. 25 at 6-10). Davis, for his part,
objects, arguing that persuasive out-of-circuit precedent suggests the saving clause should
apply in his case. (See Doc. 29 at 14-17).
Section 2255 motions “are the presumptive means by which federal prisoners can
challenge their convictions or sentences that are allegedly in violation of the Constitution,”
Okereke, 307 F.3d at 120, or in violation of federal law. As alluded to before, second or
successive motions under Section 2255 are not permitted, except under two circumstances:
where the successive motion “contain[s]” (1) “newly discovered evidence” that would
convincingly call into question the petitioner’s guilt; or (2) a previously unavailable,
retroactively applicable “new rule of constitutional law.” 28 U.S.C. § 2255(h). There is, in
effect, a third circumstance under which a successive motion is permitted: the “saving
clause” of Section 2255(e). That circumstance requires the petitioner to show that although
he “has failed to apply for relief, by motion, to the court which sentenced him” or “such court
has denied him relief,” “the remedy by motion is inadequate or ineffective to test the legality
4

11 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 5 of 10

of his detention.” 28 U.S.C. § 2255(e). If the petitioner can make that showing, he can then
proceed under Section 2241 and have his petition heard on its merits. See In re Dorsainvil,
119 F.3d 245, 251 (3d Cir. 1997). The Third Circuit’s decisions in Dorsainvil, Okereke, and
Gardner interpret the meaning of the saving clause—specifically, whether “the remedy by
motion” in a given case “is inadequate or ineffective.”
In Dorsainvil, the petitioner “was convicted of using a gun in connection with a drug
crime,” even though the gun may have been merely present at the scene of the drug
crime—conduct which fell within the scope of the statute of conviction at the time of
conviction. Pollard v. Yost, 406 F. App’x 635, 637 (3d Cir. 2011). The Supreme Court later
determined, after the petitioner “had exhausted his direct appeals and a § 2255 petition,”
that the “mere presence of a gun at the scene of a drug crime” does not constitute “use.”
Id. (citing Bailey v. United States, 516 U.S. 137 (1995)). The petitioner argued that the
Supreme Court’s decision effectively rendered him innocent, and that he deserved a
habeas remedy. Id. The Third Circuit agreed, holding that the petitioner could proceed
under Section 2241 pursuant to Section 2255(e)’s saving clause. Dorsainvil, 119 F.3d at
251. The court reasoned that if “it is a ‘complete miscarriage of justice’ to punish a
defendant for an act that the law does not make criminal, thereby warranting resort to the
collateral remedy afforded by § 2255, [as the Supreme Court concluded in Davis v. United
States, 417 U.S. 333, 346-47 (1974),] it must follow that it is the same ‘complete
miscarriage of justice’ when [Section 2255's gatekeeping provisions] make[] that collateral
remedy unavailable.” Id. “In that unusual circumstance,” the court explained, “the remedy
afforded by § 2255 is ‘inadequate or ineffective to test the legality of [the petitioner’s]
detention.’” Id. But the court cautioned that Section 2255 is not “inadequate or ineffective”
“merely because th[e] petitioner is unable to meet the stringent gatekeeping requirements
. . . .” Id.
Judge Sloviter, who authored the opinion in Dorsainvil, explained Dorsainvil’s limits
in Okereke v. United States, 307 F.3d 117 (3d Cir. 2002). In Okereke, the petitioner argued
that although he had exhausted his direct appeals and a Section 2255 petition, his collateral
5

12 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 6 of 10

attack on his sentence on the basis of Apprendi v. New Jersey, 530 U.S. 466 (2000) (a
decision unavailable at the time of his direct appeal and first Section 2255 petition) was
cognizable under Dorsainvil and Section 2255(e). Okereke, 307 F.3d at 120. The court
disagreed. Id. Dorsainvil involved an “intervening change in law” that “potentially made the
crime for which that petitioner was convicted non-criminal,” whereas “Apprendi dealt with
sentencing and did not render conspiracy to import heroin, the crime for which Okereke was
convicted, not criminal.” Id. Thus, even though Apprendi may have required Okereke
receive a lesser sentence than that which he received, Section 2255 “was not inadequate
or ineffective for Okereke to raise his Apprendi argument.” Id. at 121.
Gardner v. Warden Lewisburg USP, 845 F.3d 99 (3d Cir. 2017) reaffirmed that
Dorsainvil (and by extension, the saving clause) does not extend to sentencing error
challenges. Gardner, like Okereke, argued that a new Supreme Court decision—Alleyne v.
United States, 133 S. Ct. 2151 (2013)—rendered his sentence of life in prison unlawful
because all sentence-enhancing facts were not submitted to a jury. Gardner, 845 F.3d at
102. But Gardner had already exhausted his direct appeals and filed an unsuccessful
Section 2255 motion. Id. at 101. Accordingly, the court held that even though Gardner could
not surmount Section 2255's gatekeeping requirements, the remedy afforded by Section
2255 was not “inadequate or ineffective.” Id. at 103. This result was dictated, the court
explained, under Okereke’s logic: new Supreme Court decisions that do not render
“previously criminal conduct noncriminal” do not trigger Dorsainvil and the saving clause.
Id. at 102-03. Holding otherwise would allow the saving clause to “swallow the rule that
habeas claims presumptively must be brought in 2255 motions.” Id. at 103.
That brings me to Davis’s Petition, which alleges he was unlawfully deemed a career
offender. I agree with Magistrate Judge Mehalchick that Gardner and Okereke preclude
application of Dorsainvil and the saving clause in Davis’s case. There is no principled way
to distinguish Davis’s claim—that his sentence should be lower because he should not have
been designated a career offender per Mathis—from the claims of the petitioners in Gardner
and Okereke. Both sets of claims involve petitioners barred from filing successive petitions
6

13 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 7 of 10

who argue, on the basis of new Supreme Court decisions, they have been unlawfully
sentenced. But Dorsainvil and the saving clause are limited, at least in the Third Circuit, to
claims of actual innocence—i.e., that the petitioner should not have been detained at all.
That is ostensibly because it would only be a “complete miscarriage of justice” for a
potentially innocent petitioner, who “never had an opportunity to challenge his conviction as
inconsistent with [a new Supreme Court decision,]” to have no habeas remedy, Dorsainvil,
119 F.3d at 251—even though a miscarriage of justice may be in the eye of the beholder,
see McCarthan v. Dir. of Goodwill Industries-Suncoast, Inc., 851 F.3d 1076, 1111 (11th Cir.
2017) (Wilson, J., dissenting), and even though the Dorsainvil petitioner, under other courts’
logic, already had his habeas remedy because he had the opportunity to challenge his
conviction on the ground that later carried the day in the Supreme Court, see Lewis v.
English, 736 F. App’x 749, 752 (10th Cir. 2018) (“Lewis at least had the opportunity to”
argue his position “in the face of conflicting Fifth Circuit precedent” and “convince[] the
Supreme Court or en banc Fifth Circuit that his position was correct”); McCarthan, 851 F.3d
at 1087 (“[I]f McCarthan had raised his claim earlier, perhaps he could have been the
successful litigant that [the petitioners in relevant Supreme Court cases] later came to be.
. . . McCarthan, like [those petitioners,] had a meaningful opportunity to present his claim
and test the legality of his sentence before the court of appeals and before the Supreme
Court. A test often failed can nevertheless be an adequate test.”) (quotation omitted); Brown
v. Caraway, 719 F.3d 583, 598 (7th Cir. 2013) (Easterbrook, C.J., concerning the circulation
under Circuit Rule 40(e)) (“The reason Begay came out as and when it did was that Begay
made his argument at sentencing and pursued it all the way to the Supreme Court. Brown
could have done the same but didn’t.”). Regardless, although Davis’s situation “seems to
fall between [Dorsainvil and Okereke,]” United States v. Doe, 810 F.3d 132, 160 (3d Cir.
2015), Gardner clarifies that only Supreme Court decisions that render previously criminal
conduct noncriminal trigger the saving clause. See Gardner, 845 F.3d at 102-03. Since
Davis is challenging his sentence, he cannot meet this standard.
Davis first argues that he is not actually challenging his sentence, but rather
7

14 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 8 of 10

challenging “his conviction and punishment under the ACCA, Section 924(e).” (Doc. 29 at
12). But Section 924(e) is a “penalty provision” which provides the “punishment associated
with violating [18 U.S.C. § 922(g)(1).]” United States v. Muhammad, 146 F.3d 161, 163 (3d
Cir. 1998). If Davis were granted habeas relief, his conviction under Section 922(g)(1) would
not be impacted, resulting in a new sentence of not more than 10 years’ imprisonment
under the “default” penalty provision of Section 924(a)(2). See, e.g., United States v.
Mathis, 911 F.3d 903, 906 (8th Cir. 2018) (affirming Mathis’s new 80-month sentence after
remand from the Supreme Court; Mathis originally pled guilty to violations of 18 U.S.C. §§
922(g)(1) and 924(e)). So Davis is claiming he is innocent of his sentence, not his
conviction.
In the alternative, even if he is challenging his sentence, Davis contends that the
saving clause is not limited by its terms to “claims involving only guilt or actual innocence[:]”
it applies where a Section 2255 motion would be inadequate or ineffective “to test the
legality of his detention[,]” not just the legality of his conviction. (Doc. 29 at 10) (emphasis
in original) (quotation omitted). That is a convincing argument, but it is beside the point.
Gardner and Okereke do not interpret the word “detention” in Section 2255(e), they interpret
the words “inadequate or ineffective.” That a petitioner is challenging the legality of his
detention is a necessary, but not sufficient, condition to proceeding under the saving clause.
Davis still has to show the inadequacy or ineffectiveness of his remedy by Section 2255
motion—which, under Gardner and Okereke, he cannot do.
Davis next attempts to distinguish Gardner on the ground that Alleyne, the new
Supreme Court decision the petitioner in that case relied on, addressed a change to
sentencing procedure as opposed to a “substantive” change like in Mathis. (Doc. 29 at 15).
I do not find that reasoning persuasive. The only case Davis relies on for that distinction
dealt with whether the Supreme Court’s Johnson decision, which held the ACCA’s residual
clause unconstitutionally vague, “announced a substantive rule that has retroactive effect
in cases on collateral review.” Welch v. United States, 136 S. Ct. 1257, 1268 (2016)
(holding it did). Neither the Court’s holding in Welch nor its logic distinguishing substantive
8

15 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 9 of 10

rules from procedural ones impacts the application of Dorsainvil to the present case. The
question under Dorsainvil, as Gardner clarifies, is whether the new Supreme Court decision
“establish[es] a rule that ma[kes] prior criminal conduct noncriminal.” Gardner, 845 F.3d at
103. Gardner does note that a “change in substantive law” led to the Dorsainvil exception;
but it goes on to explain that the saving clause “provides a safety valve for actual
innocence,” not one through “which all sentencing issues based on new Supreme Court
decisions could be raised via § 2241 petitions.” Id. Here, Davis relies on Mathis, but as
Magistrate Judge Mehalchick notes, Mathis did not render Davis’s conduct noncriminal.
(Doc. 25 at 9); see Mathis v. United States, 136 S. Ct. 2243, 2257 (2016) (holding
convictions under Iowa’s burglary statute “cannot give rise to an ACCA sentence”). Thus,
Davis cannot take advantage of the saving clause.
One cannot blame Davis for trying, though. Compounding the confusion are
conflicting statements in non-precedential Third Circuit opinions on whether innocence of
the sentence claims like Davis’s might be cognizable in Section 2241 petitions. Compare
In re Baer, 763 F. App’x 278 (3d Cir. 2019) (“[W]e have not determined whether § 2255(e)’s
saving clause is available when a prisoner, like Baer, argues that an intervening U.S.
Supreme Court case renders his career-offender designation invalid[.]”), Thomas v. Warden
Fort Dix FCI, 712 F. App’x 126, 128 n.3 (3d Cir. 2017) (“We have not determined whether
§ 2255(e)’s saving clause is available when a defendant seeks to challenge his careeroffender designation . . . .”) (citation omitted), and Pollard v. Yost, 406 F. App’x 635, 638
(3d Cir. 2011) (“[W]e do not foreclose the possibility that Dorsainvil could be applied to a
petitioner who can show that his or her sentence would have been lower but for a change
in substantive law made after exhaustion of the petitioner’s direct and collateral appeals
under § 2255.”), with Murray v. Warden Fairton FCI, 710 F. App’x 518, 520 (3d Cir. 2018)
(“We have not held that innocence-of-the-sentence claims fall within the exception to the
rule that habeas claims must be brought in § 2255 motions.”) (citing Gardner, 845 F.3d at
103), Pearson v. Warden Canaan USP, 685 F. App’x 93, 96 (3d Cir. 2017) (“§ 2241 is not
available for an intervening change in the sentencing laws.”) (citing Okereke, 307 F.3d at
9

16 a

Case 3:17-cv-00968-ARC Document 33 Filed 06/17/19 Page 10 of 10

120-21), Scott v. Shartle, 574 F. App’x 152, 155 (3d Cir. 2014) (“[B]ecause [petitioner] is
challenging his career offender designation and is not claiming that he is now innocent of
the predicate offense, he does not fall within the ‘safety valve’ exception created in In re
Dorsainvil and cannot proceed under § 2241.”), and United States v. Brown, 456 F. App’x
79, 81 (3d Cir. 2012) (Section 2241 unavailable where petitioner asserted “only that he is
‘innocent’ of being a career offender”). And in the meantime, the circuit split on this very
issue has deepened. Compare United States v. Wheeler, 886 F.3d 415 (4th Cir. 2018), Hill
v. Masters, 836 F.3d 591 (6th Cir. 2016), and Brown v. Caraway, 719 F.3d 583 (7th Cir.
2013), with McCarthan v. Dir. of Goodwill Industries-Suncoast, Inc., 851 F.3d 1076 (11th
Cir. 2017) (en banc), and Prost v. Anderson, 636 F.3d 578 (10th Cir. 2011) (Gorsuch, J.).
Davis’s petition is made all the more compelling by his particular situation: he brought
up, on direct appeal, the same argument that carried the day in Mathis, regarding the same
Iowa statute. It may seem odd to conclude that Section 2255 is “adequate” or “effective”
where a petitioner denied relief “was right when [the lower courts] were wrong,” United
States v. Doe, 810 F.3d 132, 161 (3d Cir. 2015). But, compelling or not, Davis’s situation
does not render Section 2255 inadequate or ineffective under Third Circuit precedent. He
was able to raise his Mathis claim before Mathis existed, albeit unsuccessfully. See Gardner
v. Warden Lewisburg USP, 845 F.3d 99, 103 (3d Cir. 2017) (petitioner failed to explain “why
the statutory scheme, as written, would not have allowed him to adequately raise his Alleyne
claim in a § 2255 motion”). That means this Court does not have jurisdiction to consider
Davis’s Section 2241 petition. See Fraser v. Zenk, 90 F. App’x 428, 430 (3d Cir. 2004).
IV. Conclusion
For the reasons stated above, Magistrate Judge Mehalchick’s R&R will be adopted.
Davis’s Petition will be dismissed without prejudice for lack of jurisdiction.
An appropriate order follows.

June 17, 2019
Date

/s/ A. Richard Caputo
A. Richard Caputo
United States District Judge
10

17 a

Case 3:17-cv-00968-ARC Document 34 Filed 06/17/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
EUGENE DAVIS,
NO. 3:17-CV-00968
Petitioner,
(JUDGE CAPUTO)

v.

(MAGISTRATE JUDGE
MEHALCHICK)

WARDEN SPAULDING,
Respondent.
ORDER

NOW, this 17th day of June, 2019, upon review of the Report and Recommendation
of Magistrate Judge Mehalchick (Doc. 25), IT IS HEREBY ORDERED that:
(1)

The Report and Recommendation is ADOPTED.

(2)

Petitioner Eugene Davis’s Petition for Writ of Habeas Corpus pursuant to 28
U.S.C. § 2241 (Doc. 1) is DISMISSED without prejudice for lack of
jurisdiction.

(3)

The Clerk of Court is directed to mark this case CLOSED.

/s/ A. Richard Caputo
A. Richard Caputo
United States District Judge

18 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 1 of 11

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
EUGENE DAVIS,
Petitioner,

CIVIL ACTION NO. 3:17-CV-968

v.

(CAPUTO, J.)
(MEHALCHICK, M.J.)

WARDEN SPAULDING,
Respondent.

REPORT AND RECOMMENDATION
Petitioner, Eugene Davis, brings the instant petition for a writ of habeas corpus
submitted pursuant to 28 U.S.C. § 2241, in which he challenges the legality of his sentence
imposed by the Northern District of Iowa. At the time of the filing of this federal habeas
petition, Davis was incarcerated at FCI Allenwood, Union County, Pennsylvania, within the
confines of the Middle District of Pennsylvania. Specifically, Petitioner claims he is entitled
to federal habeas corpus relief because he was improperly sentenced in light of the Supreme
Court’s decision in Mathis v. United States, 136 S. Ct. 2243 (2016). At issue before the Court is
whether the savings clause of § 2255 encompasses sentencing claims such as the one presented
by Petitioner here. The Court finds that, in accordance with applicable Third Circuit
precedent, such claims are not encompassed by that savings clause, and for the reasons set
forth below, it is recommended that the Court dismiss the petition for lack of jurisdiction.
I.

BACKGROUND AND PROCEDURAL HISTORY
Petitioner Eugene Davis (“Davis” or “Petitioner”) was convicted of third-degree

burglary in Iowa. (Doc. 10-1 at 1). At the time of Davis’ sentencing, third-degree burglary in
Iowa was considered a violent felony under the enumerated-offenses clause of 18 U.S.C. §

19 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 2 of 11

924 (e).1 (Doc. 10-1 at 23). Thus, Davis qualified under the Armed Career Criminal Act
(“ACCA”) for sentencing purposes and was ultimately sentenced to 210 months in prison.
(Doc. 10-1 at 9 ¶ 43); (Doc. 24 at 6). 2 On March 30, 2011, the U.S. Court of Appeals for the
Eighth Circuit upheld Davis’s conviction and sentence. (Doc. 10-2 at 1-2). On October 18,
2012, Davis moved to vacate his sentence in the Northern District of Iowa, pursuant to § 2255.
The court denied that motion. (Doc. 10-1 at 1 ¶ 1; at 2 ¶ 13).
In 2016, in the Mathis v. United States decision, the United States Supreme Court held
that a conviction under the Iowa burglary statute did not qualify as a predicate offense for
ACCA sentence enhancement because the elements of the Iowa burglary law are “broader
than those of generic burglary” and the ACCA envisions a burglary conviction as limited to
the generic elements. Mathis v. United States, 136 S. Ct. 2243, 2246 (2016); I.C.A. § 702. Under
the ACCA, the elements required to convict for the crime of burglary are: 1) unlawful or
privileged entry, 2) into a building or other structure, and 3) with intent to commit a crime
therein. Mathis, 136 S. Ct. at 2248 (citing Taylor v. United States, 495 U.S. 575, 598 (1990)).
Under the Iowa code, the location element for the burglary crime could be satisfied by a

The government identifies “two separate 2006 Iowa convictions for third degree
burglary of commercial buildings” as the relevant offenses for sentencing purposes. (Doc. 10
at 2). The government cites criminal docket 1:09-cr-000052-LRR from the Northern District
of Iowa, entry No. 40, a sealed presentencing report, as means of verifying the existence of
these offenses.
1

The ACCA imposes a 15–year mandatory minimum sentence on a defendant
convicted of being a felon in possession of a firearm who also has three prior state or federal
convictions “for a violent felony,” including “burglary, arson, or extortion.” Mathis, 136 S.
Ct. at 2245. (citing 18 U.S.C. §§ 924(e)(1), (e)(2)(B)(ii)).
2

2

20 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 3 of 11

“building, other structure, or vehicle.” Mathis, 136 S. Ct. at 2256 (citing State v. Duncan, 312
N.W.2d 519, 523 (Iowa 1981)).
On May 24, 2016, citing Mathis, Davis petitioned the Eighth Circuit Court of Appeals,
seeking authorization to file a second petition for habeas corpus pursuant to § 2255 in the
Northern District of Iowa. (Doc. 10-1 at 30 ¶ 1). The federal public defender’s office
represented Davis in his petition. (Doc. 10-1 at 30 ¶ 2). The Eighth Circuit denied his request,
reasoning, inter alia, that the Supreme Court’s decision in Mathis did not announce a new rule
of Constitutional law. (Doc. 10-1 at 23).
On June 5, 2017, this Court received and filed a petition for a writ of habeas corpus
submitted pursuant to 28 U.S.C. § 2241, mailed by Petitioner Eugene Davis (“Davis” or
“Petitioner”) on May 30, 2017. (Doc. 1).3 Davis brings his habeas petition under § 2241, via
the savings clause of 28 U.S.C. § 2255(e), alleging he is entitled to relief pursuant to Mathis v.
United States, 136 S. Ct. 2243 (2016).
In its initial response, the government did not contest Davis’s assertion that he is
entitled to habeas relief. (Doc. 10 at 1). The government averred that, in its view, the two
2006 Iowa burglary convictions for third degree are not predicate offenses for an ACCA
sentence. 18 U.S.C.A. § 924(e)1; (Doc. 10 at 6). If these two sentences were excluded, Davis
would not qualify for the 15-year mandatory minimum under the ACCA; Davis would be a
felon in possession of a firearm, an offense punishable for a maximum term of ten years. 18

Petitioner did not sign or date his original submission. Pursuant to a court order,
petitioner re-submitted a signed and dated habeas petition on October 5, 2017. (Doc. 7).
3

3

21 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 4 of 11

U.S.C.A. § 922; (Doc. 10 at 9). The Court scheduled a teleconference in this matter, directing
the parties’ attention to a line of district court decisions holding that Mathis did not announce
a new rule of law to be applied retroactively, and not extending Dorsainvil to include situations
where a prisoner is challenging a sentence based on an intervening change in substantive law
and the claims presented are not based on a contention that Mathis decriminalized the conduct
which led to his conviction. (Doc. 15). The Court also appointed counsel for Petitioner. (Doc.
15). Following the teleconference, the government submitted a motion to amend its response
to Davis’s habeas petition. (Doc. 17). The Court granted that motion. (Doc. 19). Both parties
have fully briefed this petition, and the matter is now ripe for review. (Doc. 20); (Doc. 24).
II.

DISCUSSION
Section 2241 sets out the general power of a federal court to issue a writ of habeas

corpus. In pertinent part, 28 U.S.C. § 2241 (a) provides: “[w]rits of habeas corpus may be
granted by the Supreme Court, any justice thereof, the district courts and any circuit judge
within their respective jurisdictions.” However, the presumptive means by which federal
prisoners may challenge their convictions or sentences allegedly in violation of the
Constitution is by motion made pursuant to 28 U.S.C. § 2255. Okereke v. United States, 307
F.3d 117 (3d Cir. 2002) (citing Davis v. United States, 417 U.S. 333, 342, 94 S.Ct. 2298, 41
L.Ed.2d 109 (1974)); see In re Dorsainvil, 119 F.3d 245 (3d Cir. 1997). A federal prisoner may
seek habeas relief pursuant to § 2241 if he can establish that the remedy by motion under §
2255 is inadequate or ineffective to test the legality of his detention. Boumediene v. Bush, 553
U.S. 723, 776 (2008) (discussing § 2255's “saving clause”); Bruce v. Warden USP Lewisburg, 868
F.3d 170, 183 (3d Cir. 2017).

4

22 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 5 of 11

In order to challenge a conviction and sentence in a § 2241 petition, a defendant must
prove that a § 2255 motion is inadequate or ineffective by showing both: 1) that he is actually
innocent of the crime and 2) that he had no prior opportunity to bring the challenge to his
conviction. See United States v. Tyler,732 F.3d 241, 246 (3d Cir. 2013); In re Dorsainvil, 119 F.3d
245,251-252 (3d Cir. 1997). The “safety valve” provided under § 2255 is extremely narrow
and, in order for this Court to entertain a § 2241 challenge to a federal conviction and
sentence, a prisoner must assert a claim of actual innocence when there is a change in
statutory caselaw that applies retroactively in cases on collateral review. Bruce, 868 F.3d at
183; Tyler, 732 F.3d at 246; Dorsainvil, 119 F.3d at 252. Further, the prisoner must have “had
no earlier opportunity to challenge his conviction for a crime that an intervening change in
substantive law may negate.” Bruce, 868 F.3d at 180 (quoting Dorsainvil, 119 F.3d at 251).
“Under the explicit terms of 28 U.S.C. § 2255, unless a § 2255 motion would be
‘inadequate or ineffective,’ a habeas corpus petition under § 2241 cannot be entertained by
the court.” Cradle v. United States, 290 F.3d 536, 538 (3d Cir. 2002) (quoting § 2255(e)). The
burden is on the habeas petitioner to allege or demonstrate inadequacy or
ineffectiveness. See Application of Galante, 437 F.2d 1164, 1165 (3d Cir. 1971). Two conditions
must be satisfied before a prisoner may access § 2241; the first condition is that he must claim
actual innocence, i.e. that his conduct was non-criminal.4 Bruce, 868 F.3d at 183; Tyler, 732
F.3d at 246; Dorsainvil, 119 F.3d at 252.

In Dorsainvil, the petitioner sought to bring a successive § 2255 motion on the basis
of the Supreme Court's decision in Bailey v. United States, 516 U.S. 137 (1995), in which the
4

5

23 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 6 of 11

To support an actual innocence claim, the petitioner must “establish that ‘in light of
all the evidence, it is more likely than not that no reasonable juror would have convicted
him.’” United States v. Garth, 188 F.3d 99, 107 (3d Cir.1999) (quoting Bousley v. United
States, 523 U.S. 614, 623, 118 S.Ct. 1604, 140 L.Ed.2d 828 (1998)). “A petitioner can establish
that no reasonable juror would have convicted him by demonstrating an intervening change
in law that rendered his conduct non-criminal.” U.S. v. Tyler, 732 F.3d 241, 246 (3d Cir. 2013)
(citations omitted).
Citing case law from the Fourth, Sixth, and Seventh Circuit Courts of Appeal, Davis
submits that the plain text of § 2255(e) does not limit it to claims involving only guilt or
innocence, and as such the Court may entertain a § 2241 petition under that savings clause.

Court held that a defendant may not be convicted of using a firearm under 18 U.S.C. § 924(c)
unless the government proves that the defendant “actively employed the firearm during and
in relation to the predicate crime.” Dorsainvil, 119 F.3d at 246-47 (quoting Bailey, 516 U.S. at
509). After the Bailey decision, the petitioner in Dorsainvil filed an application to file a
successive § 2255 motion claiming that on the basis of Bailey, he was imprisoned for conduct
that the Supreme Court had determined is not illegal. Dorsainvil, 119 F.3d at 247. The Third
Circuit held that a prisoner who was convicted and filed his first § 2255 motion before the
Bailey decision may not file a second § 2255 motion based on Bailey because the second motion
based on Bailey does not present a claim of newly discovered evidence or a claim based on a
new rule of constitutional law—the two situations in which § 2255 may allow a second or
successive § 2255 motion. Dorsainvil, 119 F.3d at 247-48. Therefore, such a motion did not
meet the stringent requirements created by the Antiterrorism and Effective Death Penalty Act
for filing a second § 2255 motion. Dorsainvil, 119 F.3d at 248. Nevertheless, the Third Circuit
went on to hold that although a prisoner may not file a second § 2255 motion based on Bailey,
he may file a 28 U.S.C. § 2241 habeas corpus petition. Dorsainvil, 119 F.3d at 251. The Third
Circuit cautioned, however, that its holding was narrow, and was meant to allow someone in
Dorsainvil's unusual position – that of a prisoner who had no earlier opportunity to challenge
his conviction for a crime that an intervening change in substantive law may negate, even
when the government concedes that such a change should be applied retroactively – is hardly
likely to undermine the gatekeeping provisions of § 2255. Dorsainvil, 119 F.3d at 51.
6

24 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 7 of 11

(Doc. 24 at 10). See United States v. Wheeler, 886 F.3d 415, 427-28 (4th Cir. 2018), cert. denied,
No. 18-420, 2019 WL 1231947 (U.S. March 18, 2019); Lester v. Fournoy, 909 F.3d 708, 716
(4th Cir. 2018); Brown v. Rios, 696 F.3d 638, 640-41 (7th Cir. 2012); Hill v. Masters, 836 F.3d
591, 595-96 (6th Cir. 2016). However, the Third Circuit and its District Courts have not
extended the limited Dorsainvil exception to include situations where a prisoner is challenging
a sentence based on an intervening change in substantive law. Okereke, 307 F.3d at 120
(refusing to extend Dorsainvil exception to sentencing challenge under Apprendi v. New Jersey,
530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000)); Pearson v. Warden Canaan USP, 685
Fed.Appx. 93, 96 (3d Cir. 2017) (“§ 2241 is not available for an intervening change in the
sentencing laws”, citing Okereke, 307 F.3d 117); Jackson v. Kirby, No. 17-4651, 2017 WL
3908868 (D.N.J. Sept. 6, 2017) (Mathis-based sentencing enhancement claim not properly
asserted under § 2241); Parker v. Warden FCI-Schuylkill, No. 17-0765, 2017 WL 2445334 (M.D.
Pa. Jun. 6, 2017) (dismissing § 2241 habeas petition on screening because Mathis based
sentencing enhancement claim is not properly asserted under § 2241). Rather, the Third
Circuit only permits access to § 2241 when a prisoner is asserting a claim of actual innocence
on the theory that he is being detained for conduct that has subsequently been rendered noncriminal by a change in statutory caselaw that applies retroactively in cases on collateral
review; and second, that the prisoner is otherwise barred from challenging the legality of the
conviction under § 2255. Bruce, 868 F.3d at 180 (citations omitted). In other words, the
prisoner must have had no earlier opportunity to challenge his conviction for a crime that an
intervening change in substantive law may negate. Id.
Indeed, in Gardner v. Warden Lewisburg USP, the Third Circuit again recognized that §
2255’s savings clause provided a safety valve for actual innocence, but declined to expand
7

25 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 8 of 11

that provision to allow all sentencing issues based on new Supreme Court decisions to be
raised via § 2241 petitions, finding that “would swallow the rule that habeas claims
presumptively must be brought in § 2255 motions.” Gardner v. Warden Lewisburg USP, 845
F.3d 99, 103 (3d Cir. 2017). Specifically, in Gardner, the petitioner argued that his sentence
could be challenged via a § 2241 petition where, subsequent to his sentencing, the Supreme
Court rendered its decision in Alleyne v. United States5, which regulated sentencing procedure
but did not render previous criminal conduct noncriminal. The Third Circuit reiterated its
holding in Okereke that “unlike the change in substantive law leading to the exception in
Dorsainvil, issues that might arise regarding sentencing did not make § 2255 inadequate or
ineffective.” Gardner, 845 F.3d at 103; citing Okereke, 307 F.3d at 120–21.
Further, “innocence of a sentence enhancement is not the same as actual innocence of
the underlying criminal offense such that the remedy afforded by § 2255 would be inadequate
or ineffective.” Sliney v. Purdue, 1:15-cv-1410, 2015 WL 6690212, *2 (M.D. Pa. October 30,
2015) (citing United States v. Brown, 456 F. App'x 79, 81 (3d Cir.2012) (per curiam ) (stating “§
2255's 'safety valve' applies only in rare circumstances… [petitioner] has not satisfied that
standard here, as he makes no allegation that he is actually innocent of the crime for which
he was convicted, but instead asserts only that he is 'innocent' of being a career offender”). See
also Jackson v. United States, No. 3:16-CV-180, 2016 WL 853360, *4 (M.D. Pa. February 3,
2016) (Report and Recommendation adopted (2016 WL 852591 M.D. Pa. March 4, 2016)) (§
2241 petitioner’s claim that he was improperly sentenced as an armed career criminal should

5

133 S. Ct. 1251, 186 L.Ed.2d 314 (2013)
8

26 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 9 of 11

be addressed by the sentencing court pursuant to a motion to correct sentence under § 2255);
2018 WL 372164, *3 (M.D. Pa. January 11, 2018) (affirmed Dusenberry v. Warden Allenwood
USP, 720 F. App’x 102 (3d Cir. 2018) (cert. denied, 2019 WL 1231793 (U.S. March 18, 2019))
(§ 2241 petitioner’s claim was not based on a contention that Mathis rendered non-criminal
the conduct for which he was convicted, but instead was a challenge to the basis for his
sentence and sentencing enhancement pursuant to Mathis.)
Davis’s petition is plainly a challenge to the sentence he received. Davis asserts that he
“can show that he is actually innocent of the allegations that gave rise to his ACCA sentence.”
(Doc. 1 at 3). However, the effect of Mathis was not to overturn the Iowa burglary statute
under which Davis was convicted, but instead to hold that the Iowa burglary statute under
which Davis was convicted could not serve as a predicate offense for the ACCA sentencingenhancement. The Supreme Court’s decision in Mathis does not render his conduct “noncriminal.” Davis submits that he was “wrongfully sentenced as an Armed Career Criminal”
(Doc. 1 at 1), relying on Mathis to argue that his predicate offenses should not have qualified
him for the ACCA. (Doc. 1 at 2; 4). However, Davis was not convicted of being an Armed
Career Criminal; he was convicted pursuant to the Iowa Burglary Statutes. Thus, he does not
and cannot claim actual innocence. Because Davis cannot meet the first of two mandatory
conditions for seeking § 2241 habeas relief, the Court declines to discuss the second. See Sliney,
2015 WL 6690212, *2. See also Hoyte v. Warden USP Allenwood, No. 3:16-cv-1204, 2016 WL
4472967 (M.D. Pa. August 23, 2016) (finding that § 2241 petitioner’s challenge his conviction
and sentence, based on a claim other than actual innocence, must be dismissed for lack of
jurisdiction and not discussing whether petitioner theoretically would have had another
opportunity to challenge his conviction).
9

27 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 10 of 11

III.

CONCLUSION AND RECOMMENDATION
Having considered the arguments of the parties, and concluding that the effect of

Mathis is to hold that the Iowa burglary conviction could not serve as a predicate offence, but
did not render Davis’s conduct non-criminal, the Court finds that Davis’s claim does not
trigger the safety clause of 28 U.S.C. § 2255(e). For the foregoing reasons, it is recommended
that Davis’s § 2241 petition be dismissed for lack of jurisdiction.

s/ Karoline Mehalchick

Dated: April 10, 2019

KAROLINE MEHALCHICK
United States Magistrate Judge

10

28 a

Case 3:17-cv-00968-ARC Document 25 Filed 04/10/19 Page 11 of 11

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
EUGENE DAVIS,
Petitioner,
CIVIL ACTION NO. 3:17-CV-968
v.
(CAPUTO, J.)
(MEHALCHICK, M.J.)

WARDEN SPAULDING,
Respondent.

NOTICE
NOTICE IS HEREBY GIVEN that the undersigned has entered the foregoing Report
and Recommendation dated April 10, 2019.
Any party may obtain a review of the Report and Recommendation pursuant to Rule
72.3, which provides:
Any party may object to a magistrate judge’s proposed findings,
recommendations or report addressing a motion or matter described in 28
U.S.C. § 636(b)(1)(B) or making a recommendation for the disposition of a
prisoner case or a habeas corpus petition within fourteen (14) days after being
served with a copy thereof. Such party shall file with the clerk of court, and
serve on the magistrate judge and all parties, written objections which shall
specifically identify the portions of the proposed findings, recommendations or
report to which objection is made and the basis for such objections. The
briefing requirements set forth in Local Rule 72.2 shall apply. A judge shall
make a de novo determination of those portions of the report or specified
proposed findings or recommendations to which objection is made and may
accept, reject, or modify, in whole or in part, the findings or recommendations
made by the magistrate judge. The judge, however, need conduct a new
hearing only in his or her discretion or where required by law, and may consider
the record developed before the magistrate judge, making his or her own
determination on the basis of that record. The judge may also receive further
evidence, recall witnesses or recommit the matter to the magistrate judge with
instructions.

s/ Karoline Mehalchick

Dated: April 10, 2019

KAROLINE MEHALCHICK
United States Magistrate Judge

29 a

